No. 20-1434

In the
Supreme Court of the United States
LESLIE RUTLEDGE, ET AL.,
v.

Petitioners,

LITTLE ROCK FAMILY PLANNING SERVICES, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
CERTIFICATE OF SERVICE

In accordance with Rule 29.5(b) and the Court’s April 15, 2020 Order, I certify
that all parties required to be served, have been served, and that the required copies
of the Brief of the State of Missouri and Twenty-One Other States as Amici Curiae in
Support of Petitioners in the above captioned case has been sent to the U.S. Supreme
Court by commercial overnight delivery, and electronic copies were served by
electronic mail on the following parties listed below on May 13, 2021.
Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General’s Office
323 Center St., Suite 200
Little Rock, AR 72201
nicholas.bronni@arkansasag.gov
Counsel for Leslie Rutledge, et al.
Kendall Kelly Alexis Turner
O’MELVENY & MYERS
1625 I St. N.W.
Washington, DC 20006
kendallturner@omm.com
Counsel for Little Rock Family Planning Services, et al.

May 13, 2021

Respectfully submitted,
s/ D. John Sauer
D. John Sauer
Solicitor General
Counsel of Record
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
Counsel for Amici Curiae

